                   Department of Veterans Affairs 

                   Office of Inspector General 





          Combined Assessment Program 

               Summary Report 


   Evaluation of Polytrauma Care in 

Veterans Health Administration Facilities 





Report No. 12-01702-303                                     September 11, 2013

                          VA Office of Inspector General

                             Washington, DC 20420

         To Report Suspected Wrongdoing in VA Programs and Operations:

                            Telephone: 1-800-488-8244 

                            E-Mail: vaoighotline@va.gov

             (Hotline Information: http://www.va.gov/oig/contacts/hotline.asp) 





VA Office of Inspector General                                                     2
                                 Evaluation of Polytrauma Care in Veterans Health Administration Facilities



                                   Executive Summary 

The VA Office of Inspector General Office of Healthcare Inspections completed an
evaluation of polytrauma care in Veterans Health Administration (VHA) facilities.
The purpose of the evaluation was to determine whether VHA facilities complied with
selected requirements related to screening, evaluation, and coordination of care for
patients affected by polytrauma.

Inspectors evaluated polytrauma care at 57 facilities during reviews conducted from
October 1, 2011, through September 30, 2012. Fifty-four facilities had Combined
Assessment Program reviews that included 2 Level I sites, 6 Level II sites, 36 Level III
sites, and 10 Level IV sites. We made separate visits to the remaining three Level I sites.
We identified five areas where VHA facilities needed to improve compliance.

We recommended that the Under Secretary for Health ensures that:

	 VHA performs a detailed analysis of workload and resource use to determine whether
   there is continued need for the numbers of sites at the current levels and whether
   changes in the requirements for dedicated polytrauma resources are needed.

	 Level IV sites performing comprehensive traumatic brain injury evaluations have
   approved alternate plans.

	 Clinicians consistently complete traumatic brain injury evaluations within 30 days of
   positive screens.

	 The case management process meets requirements.

	 Staff caring for polytrauma patients have the documented competencies required for
   caring for these patients.




VA Office of Inspector General                                                                            i
                                   DEPARTMENT OF VETERANS AFFAIRS

                                          Office of Inspector General 

                                           Washington, DC 20420





TO:                    Under Secretary for Health (10)

SUBJECT:               Combined Assessment Program Summary Report – Evaluation of
                       Polytrauma Care in Veterans Health Administration Facilities

Purpose
The VA Office of Inspector General Office of Healthcare Inspections evaluated
polytrauma care in Veterans Health Administration (VHA) facilities. The purpose of the
evaluation was to determine whether VHA facilities met selected requirements related to
screening, evaluation, and coordination of care for patients affected by polytrauma.

Background
Polytrauma is defined as two or more injuries sustained in the same incident that affect
multiple body parts or organ systems and result in physical, cognitive, psychological, or
psychosocial impairments and functional disabilities.1 Traumatic brain injury (TBI)
frequently occurs as part of the polytrauma spectrum. In 2005, VHA was directed to
designate cooperative centers for clinical care, consultation, research, and educational
activities on complex TBI and polytrauma associated combat injuries. Additionally,
VHA must ensure that returning war veterans with lasting injuries have the best medicine
and integrative holistic therapies available.

VHA established a four-tiered Polytrauma System of Care with components for each
level of care.2 The four levels are:

      	 Polytrauma Rehabilitation Centers – Level I: Five sites provide acute medical care
           and acute and transitional rehabilitation care (Minneapolis, MN; Palo Alto, CA;
           Richmond, VA; San Antonio, TX; and Tampa, FL). These sites provide both
           inpatient and outpatient care. Level I sites serve as regional referral centers for
           acute medical and rehabilitation care and as hubs for research and education
           related to polytrauma and TBI. In addition, each site is required to have inpatient

1
    VHA Directive 2009-028, Polytrauma-Traumatic Brain Injury (TBI) System of Care, June 9, 2009.
2
    VHA Directive 2009-028.


VA Office of Inspector General                                                                      1
                                 Evaluation of Polytrauma Care in Veterans Health Administration Facilities


        beds, a specialized program for severely injured patients who regained
        consciousness after a period of unconsciousness or coma, outpatient programs, and
        residential transitional rehabilitation programs.
    	 Polytrauma Network Sites – Level II: There is one Polytrauma Network Site
        located within each of the 22 Veterans Integrated Service Networks (VISNs).
        These sites provide inpatient and outpatient post-acute rehabilitation care and have
        day treatment programs and interdisciplinary teams that help with community
        re-integration.
    	 Polytrauma Support Clinic Teams – Level III: These 87 sites, located within each
        VISN, provide only outpatient care for veterans and active duty service members
        with mild or stable functional deficits.
    	 Polytrauma Points of Contact – Level IV: These 39 sites are expected to screen
        patients and then refer those with positive screens to pre-approved specialists for
        evaluation. Level IV sites are generally smaller and more rural than the other
        three levels’ sites. They have a point-of-contact who ensures that patients with
        polytrauma and TBI are referred to a program capable of providing rehabilitation
        services by an interdisciplinary team. Usually Level IV sites refer to the nearest
        Level I site, the Level II site within their VISN, or one of the Level III sites within
        their VISN.

VHA requires all veterans who served in Operation Enduring Freedom (OEF), Operation
Iraqi Freedom (OIF), and Operation New Dawn to be screened for TBI when they present
to the VA for medical treatment.3 When patients screen positive for TBI, providers are
required to refer them for further evaluation. The evaluation must be completed by a
Level I, II, or III team within the Polytrauma System of Care. If the facility is a Level IV
site, the evaluation can be performed by a pre-approved specialist with the appropriate
background and skills, such as a neurologist, who has had training in the evaluation
protocol.

In our review, we found that most VHA providers informed patients of TBI screening
results and appropriately submitted TBI assessment consults for comprehensive
evaluations or documented patients’ refusal. When patients failed to appear for
evaluation appointments, staff made sufficient attempts to reschedule. Training regarding
accessing community resources, addressing polytrauma symptoms, and identifying
polytrauma restrictions/precautions was offered to families.




3
 VHA Directive 2010-012, Screening and Evaluation of Possible Traumatic Brain Injury in Operation Enduring
Freedom (OEF) and Operation Iraqi Freedom (OIF) Veterans, March 8, 2010.


VA Office of Inspector General                                                                               2
                                 Evaluation of Polytrauma Care in Veterans Health Administration Facilities


Scope and Methodology
Inspectors evaluated polytrauma care at 57 facilities during reviews conducted from
October 1, 2011, through September 30, 2012. Fifty-four facilities had Combined
Assessment Program (CAP) reviews that included 2 Level I sites, 6 Level II sites,
36 Level III sites, and 10 Level IV sites. We made separate visits to the remaining three
Level I sites. The 54 CAP facilities were a stratified random sample of all VHA facilities
and represented a mix of size, affiliation, geographic location, and VISNs. We generated
an individual report for the 54 CAP facilities. For this report, we analyzed and
summarized the data from the individual facility CAP reviews and the three Level I
reviews.

We reviewed facility policies, patients’ electronic health records (EHRs) (574 for
screening and 444 for evaluations; 52 inpatient stays and 449 outpatients), and 433 staff
training records. Additionally, we conversed with staff and inspected the Level I
dedicated inpatient units. The patient sample within each facility was not a probability
sample, and thus does not represent the entire patient population of that facility.
Therefore, the summary results presented in this report are not generalizable to the entire
VHA.

Inspectors conducted the reviews in accordance with Quality Standards for Inspection
and Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




VA Office of Inspector General                                                                           3
                                 Evaluation of Polytrauma Care in Veterans Health Administration Facilities


Inspection Results
Issue 1: Workload and Staffing

VHA provided guidelines to facilities defining the minimum numbers of clinicians
required to screen, evaluate, and treat patients with polytrauma diagnoses.4 The tables
below show selected workload numbers for the 57 facilities included in our review.

                                       Level I            Level II             Level III        Level IV
                                       (5 sites)          (6 sites)            (36 sites)       (10 sites)
Total number of OEF/OIF
veterans screened for TBI
  Fiscal year (FY) 2011                2,711–11,110       165–6,816            0–13,196         177–2,888
  FY 2012                              3,375–7,107        1,479–7,964          616–8,921        679–5,926

Level I             Number of inpatient polytrauma                              Average length of stay
                    admissions FY 2012 (unique patients)                        FY 2012 (in days)
    Minneapolis, MN                    23                                               43.26
    Palo Alto, CA                      14                                               53.13
    Richmond, VA                       23                                               49.83
    San Antonio, TX                    16                                               39.29
    Tampa, FL                          47                                               49.21

                                         Level I Staffing FY 2012*
                                 Rehabilitation        Rehabilitation
                                                                                      Social Workers
Site                              Physicians               Nurses
                               Inpatient Outpatient     Inpatient     Outpatient    Inpatient    Outpatient
Required minimum
staffing:                        1.5          0.5          12            0.5            4           0.5
  San Antonio, TX                 4            4           22             1           2.33          1.0
  Tampa, FL                       2            1          23.6            2             3            3
  Minneapolis, MN                1.5          1.3         16.0           2.0           3.0          2.0
  Palo Alto, CA                   2            2           34             9             4            5
  Richmond, VA                    1            1           8              0             4            1
* Self-reported in May 2013.




4
    VHA Directive 2009-028.


VA Office of Inspector General                                                                            4
                                 Evaluation of Polytrauma Care in Veterans Health Administration Facilities


A. Workload and Staffing:
          Level I – The workload numbers on the previous page indicate wide differences in
          the number of patients screened and admitted. Workload among the five sites
          appears uneven. The resources expected to be dedicated to polytrauma inpatient
          care at Level I sites is extensive, and it may not be necessary to have five Level I
          sites to serve the decreasing target population.

          Level II – These sites had no admissions in FYs 2011 or 2012, and some did not
          have any inpatient beds dedicated to polytrauma as required. They generally
          either used beds in regular rehabilitation units or transferred patients to the closest
          VHA facility with rehabilitation beds. VHA requires that when polytrauma
          patients are admitted for inpatient care, the polytrauma team will develop and
          manage the plan of care.5 With so few polytrauma admissions, staff may not
          develop the expertise to treat polytrauma inpatients, and resources expected to be
          dedicated to inpatient polytrauma care may be better used elsewhere.

          Level III – These sites varied widely in how many patients they evaluated and
          treated, and some did not have the workload to support fully functioning
          interdisciplinary polytrauma teams. Some sites did not have interdisciplinary
          teams and did not use specialists to complete the comprehensive evaluation.
          Additionally, the volume of patients did not appear to support the required staffing
          levels. The resources allocated for these sites may be better used elsewhere.

          Level IV – Some Level IV sites attempted to do more than VHA expected, and
          often staff without appropriate expertise performed comprehensive TBI
          evaluations. Eight of the 10 Level IV sites reviewed provided comprehensive TBI
          evaluations onsite rather than referring patients to the nearest referral site. While
          facilities may request approval of an alternate plan, none of these eight sites had
          submitted a request.

As military operations wind down, fewer veterans are presenting for evaluation, with a
resultant decrease in polytrauma workload.             Facility Physical Medicine and
Rehabilitation (PM&R) Services are responsible for the treatment of polytrauma patients
as well as patients undergoing rehabilitation for other reasons. We noted that many
facilities’ PM&R Service did not use dedicated providers to address polytrauma patients’
unique needs. It appears that facilities reacted to the decreased polytrauma demands by
transitioning away from the earlier model of specially trained rehabilitation physicians
leading dedicated polytrauma rehabilitation teams. Instead, we consistently observed that
polytrauma patients were treated by generalist PM&R interdisciplinary teams. Further,
we found that some sites did not have all the required team members and that the
full-time employee equivalent was sometimes divided among many staff rather than

5
    VHA Directive 2009-028.


VA Office of Inspector General                                                                           5
                                 Evaluation of Polytrauma Care in Veterans Health Administration Facilities


assigned to a single individual (i.e., a 0.5 full-time employee equivalent was divided
among several therapists).

We recommended that VHA perform a detailed analysis of workload and resource use to
determine whether there is continued need for the numbers of sites at the current levels
and whether changes in the requirements for dedicated polytrauma resources are needed.
We also recommended that VHA ensures that Level IV sites performing comprehensive
TBI evaluations have approved alternate plans.

B. Rehabilitation Nurses:

Nursing care in a rehabilitation setting focuses on assisting individuals with impairments
resulting from injuries, illness, or chronic disease in reaching their optimal level of health
and function. Rehabilitation nurses have expertise in the care of conditions such as
amputation, brain injury, and visual impairment.6 Although rehabilitation nurse services
were provided at Level I sites, 3 Level II sites and 15 Level III sites did not provide these
services. During our onsite reviews, some facilities told us they had difficulty attracting
rehabilitation nurse applicants. We discussed these reported difficulties with VHA
during our review, and subsequently, VHA published an updated handbook that
eliminated the requirement for rehabilitation nurses at Level II and III facilities.7

Issue 2: Timeliness of Comprehensive TBI Evaluations

VHA requires clinicians to perform and document comprehensive evaluations within
30 days of positive TBI screens or document patients’ refusal.8 We found that
94 (21 percent) of 444 evaluations were not completed within 30 days of positive screens.
These 94 evaluations break down by level as follows:

                                    Total          Level I        Level II         Level III   Level IV
Total                               444            41             45               282         76
Evaluations not completed           94 (21%)       16 (39%)       11 (24%)         52 (18%)    15 (20%)
within 30 days of positive
screen

We recommended that VHA ensures clinicians consistently complete TBI evaluations
within 30 days of positive screens and that compliance is monitored.




6
  VHA Handbook 1172.1, Polytrauma Rehabilitation Procedures, September 22, 2005.
7
  VHA Handbook 1172.1, Polytrauma System of Care, March 20, 2013.
8
  VHA Directive 2010-012.


VA Office of Inspector General                                                                           6
                                 Evaluation of Polytrauma Care in Veterans Health Administration Facilities


Issue 3: Case Management

VHA requires that case managers be assigned to patients who screen positive for TBI and
provide coordination throughout the course of treatment, including communication at
specific points and treatment planning.9,10,11 We found that:

    	 For 21 percent (103/487) of patients, case managers were not assigned to the
        patients at the time of comprehensive evaluation. The table below shows the
        breakdown by level.

                                      Total            Level I       Level II Level III          Level IV
Total                                 487              46            57       311                73
Case managers not assigned            103 (21%)        10 (22%)      5 (9%) 50 (16%)             38 (52%)
to patients at the time of
evaluation

    	 For the 52 inpatients whose EHRs we reviewed:
          o	 Social workers did not contact patients/families prior to or on the day of
                 admission for 18 patients (35 percent) and daily during the stay for
                 39 patients (75 percent). In addition, they did not complete psychosocial
                 assessments for 7 patients (13 percent) or care plans for 8 patients
                 (15 percent) and did not coordinate discharge plans for 15 patients
                 (29 percent).
            o	   Discharge plans did not include all required items, including medical and
                 nursing needs, equipment and supplies, and discharge instructions (range
                 7–27 patients; 13–52 percent).
            o	   When discharged to another facility or the military, there was no
                 documentation that the discharge plan accompanied the patient for
                 77 percent (20/26).
            o	   There was no documentation that discharge instructions were given to the
                 patient/caregiver for 43 percent (20/47).
            o	   Interdisciplinary team members relevant to the patients’ care were not
                 involved in care planning (range 3–29 patients; 7–59 percent), the VHA
                 care planning template was not used for 9 patients (17 percent), and there
                 was no documentation that care plans were shared with 19 patients/families
                 (37 percent).



9
  VHA Directive 2012-008, Social Work Case Management in a VA Polytrauma Rehabilitation Centers, 

February 14, 2012. 

10
   VHA Handbook 1010.01, Care Management of Operation Enduring Freedom (OEF) and Operation Iraqi

Freedom (OIF) Veterans, October 9, 2009.

11
   VHA Handbook 1172.04, Physical Medicine and Rehabilitation Individualized Rehabilitation and Community 

Reintegration Care Plan, May 3, 2010. 



VA Office of Inspector General                                                                                7
                                   Evaluation of Polytrauma Care in Veterans Health Administration Facilities


             o	 For the 449 outpatients whose EHRs we reviewed, care plans were not
                  created for 66 of 449 patients (15 percent) and did not include skills to
                  maximize independence for 45 of 319 patients (14 percent) or vocational
                  rehabilitation for 50 of 272 patients (18 percent) for whom they were
                  indicated. There was no documentation that care plans were shared with
                  84 of 383 patients/families (22 percent).

Current social work and case manager staffing levels appeared adequate to support
patient case management. However, social workers and case managers told us they were
not always notified when patients were evaluated and scheduled for therapy related to
polytrauma injuries. Documentation of interactions at required intervals was lacking at
many sites.

We recommended that VHA ensures the case management process meets requirements
and that compliance is monitored.

Issue 4: Staff Training and Competencies

VHA requires that employees involved in polytrauma care receive appropriate training
and are competent to provide care to this special population.12 During our review, we
asked facilities to detail the expected training requirements for their polytrauma staff.
We found the following:

         	 Polytrauma System of Care orientation was not completed for employees hired
            within the 12 months prior to our visits for 32 percent (24/76) of applicable
            staff.
         	 When required by facilities, specialty certification was not current for
            46 percent (32/69) of applicable staff, and functional independence
            measurement13 certification was not completed for 12 percent (19/156) of
            applicable staff.

We recommended that VHA ensures that facilities consistently document that staff caring
for polytrauma patients have the documented competencies required for caring for
polytrauma patients and that compliance is monitored.

Conclusions
We noted that few patients presented for new polytrauma care. It appeared that much of
the care provided was for continuing needs related to polytrauma injuries rather than for
acute needs. Many of the Level III and IV sites relied on general PM&R Service staff to

12
  VHA Handbook 1172.1. 

13
  The functional independence measurement assesses the degree of disability and is particularly useful for judging

the extent of recovery from serious injury. It has five grades, ranging from 0 (fully independent) to 4 (completely

dependent).



VA Office of Inspector General                                                                                         8
                                 Evaluation of Polytrauma Care in Veterans Health Administration Facilities


provide the polytrauma care needed. Although patients received rehabilitation care in
these settings, it was not always from an interdisciplinary team with the polytrauma
training VHA has expected.

We found opportunities for improvement in the areas of resource dedication, timeliness
of comprehensive evaluations, provision of comprehensive evaluations at approved sites,
comprehensive case management, and staff training.

Recommendations
Recommendation 1. We recommended that the Under Secretary for Health ensures
that VHA performs a detailed analysis of workload and resource use to determine
whether there is continued need for the numbers of sites at the current levels and whether
changes in the requirements for dedicated polytrauma resources are needed.

Recommendation 2. We recommended that the Under Secretary for Health, in
conjunction with VISN and facility senior managers, ensures that Level IV sites
performing comprehensive TBI evaluations have approved alternate plans.

Recommendation 3. We recommended that the Under Secretary for Health, in
conjunction with VISN and facility senior managers, ensures that clinicians consistently
complete TBI evaluations within 30 days of positive screens and that compliance is
monitored.

Recommendation 4. We recommended that the Under Secretary for Health, in
conjunction with VISN and facility senior managers, ensures that the case management
process meets requirements and that compliance is monitored.

Recommendation 5. We recommended that the Under Secretary for Health, in
conjunction with VISN and facility senior managers, ensures that staff caring for
polytrauma patients have the documented competencies required for caring for polytrauma
patients and that compliance is monitored.

Comments
The Under Secretary for Health concurred with the findings and recommendations. The
implementation plan is acceptable, and we will follow up until all actions are completed.




                                                                 JOHN D. DAIGH, JR., M.D.

                                                                Assistant Inspector General for 

                                                                    Healthcare Inspections 



VA Office of Inspector General                                                                           9
                                 Evaluation of Polytrauma Care in Veterans Health Administration Facilities
                                                                                              Appendix A
               Under Secretary for Health Comments


               Department of
               Veterans Affairs                                       Memorandum

      Date:        August 8, 2013

      From:        Under Secretary for Health (10)

      Subject:     OIG Draft Report, Combined Assessment Program
                   Summary Report – Evaluation of Polytrauma Care in
                   Veterans Health Administration Facilities (VAIQ 7380502)

      To:          Assistant Inspector General for Healthcare Inspections (54)

     1. I have reviewed the draft report and concur with the report’s
     recommendations. Attached are corrective action plans.

     2. Should you have additional questions, please contact Karen Rasmussen,
     M.D., Acting Director, Management Review Service, at (202) 461-6643, or
     by e-mail at karen.rasmussen@va.gov.




     Robert A. Petzel, M.D.

     Attachment




VA Office of Inspector General                                                                          10
                                 Evaluation of Polytrauma Care in Veterans Health Administration Facilities




                                          VHA Action Plan

       OIG Draft Report, CAP Summary Report – Evaluation of Polytrauma
       Care in Veterans Health Administration Facilities (VAIQ 7380502)

       Date of Draft Report: July 10, 2013

       Recommendations/                           Status                      Completion
       Actions                                                                Date

       OIG Recommendations

      Recommendation 1. We recommended that the Under Secretary for Health
      ensures that VHA performs a detailed analysis of workload and resource use
      to determine whether there is continued need for the numbers of sites at the
      current levels and whether changes in the requirements for dedicated
      polytrauma resources are needed.

      Concur

      The VHA Polytrauma System of Care (PSC) was designed to improve
      access to specialized rehabilitation services for Veterans and
      Servicemembers with polytrauma and traumatic brain injury (TBI) by
      facilitating delivery of care closer to home and providing case management
      services to assist patients in transitioning back to community living.
      Successful activation of the PSC relies on judicious utilization of resources
      while assuring access to interdisciplinary teams of specialized rehabilitation
      providers across the system. Detailed analysis of workload and resource
      utilization is monitored locally and nationally with the assistance of reports
      available through the VHA Support Service Center (VSSC) and supports the
      enduring commitment to provide services and care coordination across the
      rehabilitation continuum. The Physical Medicine and Rehabilitation
      Services (PM&R) Program Office uses this information to manage requests
      from facilities to change the designation of their polytrauma programs, e.g.,
      from Polytrauma Point of Contact to Polytrauma Support Clinic Team, and
      to monitor rehabilitation staffing levels. Since 2012, PM&R has processed
      four requests for changes in polytrauma program designation and has
      utilized a web-based application to track staffing levels and composition of
      the polytrauma teams across the PSC. Additionally, the revised VHA
      Handbook 1172.01, dated March 20, 2013, describes changes in team
      staffing models to allow for more flexibility in the disciplines represented
      and the percentage of effort assigned.


VA Office of Inspector General                                                                          11
                                 Evaluation of Polytrauma Care in Veterans Health Administration Facilities


      PM&R will continue to monitor inpatient and outpatient workload and
      staffing throughout the PSC to assure appropriate resource utilization.
      Existing staffing models and programming will be modified, as appropriate,
      to assure the availability of specialty care in the traditional clinical settings,
      as well as support the expansion of specialty TBI and polytrauma services,
      as necessary.

      Actions:

      	 PM&R will monitor inpatient and outpatient workload throughout the
          PSC and will report data to the field through the office of the Deputy
          Under Secretary for Health for Operations and Management
          (DUSHOM).

                                          Timeline for completion            October 31, 2013

      	 PM&R will aggregate updated information regarding staffing levels and
          composition of the polytrauma teams throughout the PSC and will
          provide an analysis of the findings to the Committee on Care of Veterans
          with Traumatic Brain Injury.

                                          Timeline for completion                April 30, 2014

      This action plan is complete when VHA provides documentation of: 

       The first workload report that is provided to the field. 

       Briefing of the analysis to the Committee on Care of Veterans with 

         Traumatic Brain Injury.

      Recommendation 2. We recommended that the Under Secretary for
      Health, in conjunction with VISN and facility senior managers, ensures that
      Level IV sites performing comprehensive TBI evaluations have approved
      alternate plans.

      Concur

      VHA Directive 2010-012, Screening and Evaluation of Possible Traumatic
      Brain Injury in Operation Enduring Freedom (OEF) and Operation Iraqi
      Freedom (OIF) Veterans, addresses the TBI Screening and Evaluation
      process for OEF/OIF/Operation New Dawn (OND) deployment-related
      injuries. “Given the expertise required to establish a diagnosis of TBI and
      implement appropriate treatment, the (TBI evaluation) protocol must be
      completed by Level II Polytrauma Network Sites (PNS) or Level III
      Polytrauma Support Clinic Teams (PSCT) existing within the VHA
      Polytrauma System of Care.” If there is no Level II PNS or Level III PSCT
      at the medical center, “the medical center has the option of determining an

VA Office of Inspector General                                                                          12
                                 Evaluation of Polytrauma Care in Veterans Health Administration Facilities


      alternate plan and team that meets the intent of this Directive. This may
      include having the evaluation completed by a specialist with an appropriate
      background and skills, such as a physiatrist, neurologist, or neuropsychiatrist
      who has also had training in the evaluation protocol and in directing an
      interdisciplinary rehabilitation treatment team. Alternate plans are to be
      reviewed with the Veterans Integrated Service Network (VISN) Chief
      Medical Officer and the National Director of Physical Medicine and
      Rehabilitation.”

      Since the Polytrauma OIG Combined Assessment Program review, many
      sites have submitted Alternate Plans that were discussed with and approved
      by PM&R. To date, all but 6 of the 38 PPOC sites have an approved
      alternate plan in place. PM&R will contact Polytrauma Points of Contact
      (PPOC) sites that do not have an approved plan and request that they submit
      an alternate plan for TBI Evaluation. PM&R will monitor submission of
      plans until 100 percent compliance is documented.

      Actions:

         PM&R will monitor submission of alternate plans for the remaining
          6 PPOC sites until 100% compliance with VHA Directive 2010-012 is
          documented.

                                          Timeline for completion            January 31, 2014

      This action plan is complete when VHA provides documentation of
      100 percent compliance with policy requirements for Alternative Plans.

      Recommendation 3. We recommended that the Under Secretary for
      Health, in conjunction with VISN and facility senior managers, ensures that
      clinicians consistently complete TBI evaluations within 30 days of positive
      screens and that compliance is monitored.

      Concur

      VHA Directive 2010-012 addresses the TBI Screening and Evaluation
      process for OEF/OIF/OND deployment related injuries and states that, “the
      patient with possible TBI is seen for the Comprehensive TBI Evaluation
      (CTBIE) within 30 days of the initial positive screen regardless of the
      facility or specialty team responsible for completing the evaluation.”

      PM&R continues to collaborate with Primary Care and the VHA Support
      Service Center (VSSC) to make web-based reports available for local
      compliance and monitoring of performance on the TBI screening and
      evaluation process, and releases reports through the office of the DUSHOM

VA Office of Inspector General                                                                          13
                                 Evaluation of Polytrauma Care in Veterans Health Administration Facilities


      to local facilities at least quarterly. PM&R will continue to provide training
      to the field regarding the management of patients who may have suffered a
      TBI and assist VISN and facility staff in properly utilizing existing reports
      to monitor compliance, completion rates, and implement performance
      improvement plans.

      Actions:

      	 PM&R will provide education on existing online reports detailing the
          TBI screening and evaluation process that will assist facilities in
          monitoring their clinical activity. The training will be provided via Lync
          meeting during the quarterly PSC call which involves all PSC teams.

                                         Timeline for completion September 30, 2013

      	 VSSC TBI Screening and Evaluation reports are updated on a monthly
          basis and available to the field through online reports. PM&R will
          collaborate with the office of the DUSHOM to notify underperforming
          sites and develop corrective action plans. The first report is by October
          31, 2013, and quarterly thereafter.

                                          Timeline for completion            January 30, 2014

      This action plan is complete when VHA provides documentation of: 

       Education provided to the field. 

       Two quarterly reports demonstrating improvement of performance at 

         underperforming sites.

      Recommendation 4. We recommended that the Under Secretary for
      Health, in conjunction with VISN and facility senior managers, ensures that
      the case management process meets requirements and that compliance is
      monitored.

      Concur

      VHA Handbook 1172.04, Physical Medicine Rehabilitation and Community
      Reintegration Care Plan, defines the procedures for the development and
      implementation of the Individualized Rehabilitation and Community
      Reintegration (IRCR) Care Plan for Veterans and military Servicemembers
      who receive inpatient or outpatient rehabilitative care for deficits related to
      TBI and polytrauma. The Handbook provides clear direction that outlines
      the responsibilities for polytrauma/TBI case managers. This includes
      monitoring, implementation, documentation of the treatment plan,
      coordination of services, and ongoing collaboration with other VHA case
      management programs. VHA Directive 2012-008, Social Work Case

VA Office of Inspector General                                                                          14
                                 Evaluation of Polytrauma Care in Veterans Health Administration Facilities


      Management in VA Polytrauma Rehabilitation Centers, provides policy on
      social work case management in Polytrauma Rehabilitation Centers (PRC).
      This Directive defines frequency of case management follow-up and
      documentation requirements.

      Actions:

      	 PM&R will provide education on the case management responsibilities
          for the development and communication of the IRCR Care Plan.
          Training will be provided via Lync meeting during national Polytrauma
          Case Management calls.

                                          Timeline for completion November 15, 2013

      	 PM&R will monitor PRC case management documentation and patient
          follow-up requirements via presentations during quarterly PRC calls
          through presentations by each of the five PRC sites. These presentations
          will identify challenges and processes for improvement in an open and
          transparent forum.

                                          Timeline for completion            January 31, 2014

      	 PM&R will monitor implementation of the IRCR Care Plan template
          through Polytrauma Network Site (PNS) presentations. PNS teams from
          each VISN will report outcomes during monthly PNS conference calls.
          These presentations will identify challenges and processes for
          improvement in an open and transparent forum. A presentation by three
          sites per month will be completed.

                                          Timeline for completion                June 30, 2014

      This action plan is complete when VHA provides documentation of: 

       Education provided to the field. 

       Presentations made during monthly PNS calls and quarterly PRC calls. 


      Recommendation 5. We recommended that the Under Secretary for
      Health, in conjunction with VISN and facility senior managers, ensures that
      staff caring for polytrauma patients have the documented competencies
      required for caring for polytrauma patients and that compliance is
      monitored.

      Concur

      VHA Handbook 1172.01, Polytrauma System of Care, dated
      March 20, 2013, updates the educational requirements of the now rescinded


VA Office of Inspector General                                                                          15
                                 Evaluation of Polytrauma Care in Veterans Health Administration Facilities


      VHA Handbook 1172.1, Polytrauma Rehabilitation Procedures, dated
      September 22, 2005, by shifting the emphasis on provider competencies in
      the specialized areas of TBI and polytrauma rehabilitation. Since 2005,
      PM&R organized 18 national conferences on TBI and polytrauma related
      topics with more than 10,000 participants; developed a mandatory TBI
      Continuing Education Course with a web based version in 2010 and 2011,
      and presented satellite broadcasts about TBI and polytrauma topics on the
      VA Content Distribution Network. Given the multitude of learning options
      now available to TBI and polytrauma providers, VHA Handbook 1172.01,
      dated March 20, 2013 requires that specialized training and experience be
      demonstrated through competencies in the areas of TBI and polytrauma
      rehabilitation. These can be reflected in one or more of the following: job
      position functional statement or position description, certifications,
      continuing education record, professional competencies, orientation training,
      and scope or standards of practice. PM&R will collaborate with VISN
      offices to ensure they understand their responsibilities as related to
      monitoring competencies of staff assigned to polytrauma teams.

      Actions:

      	 PM&R will develop a sample polytrauma/TBI competencies checklist
          and will disseminate to the PSC Leadership to provide guidance for
          monitoring specialized skills and knowledge of TBI and polytrauma
          providers.

                                          Timeline for completion September 30, 2013

      	 The Office of the DUSHOM will require an attestation from VISNs all
          polytrauma/TBI          staff    have     completed      the    checklist     verifying
          competencies.

                                          Timeline for completion                April 30, 2014

      This action plan is complete when VHA provides documentation of:
       Dissemination of the sample Polytrauma/TBI competencies checklist.
       VISN attestations of completion of the competency checklists by all
         polytrauma/TBI staff.




VA Office of Inspector General                                                                          16
                                 Evaluation of Polytrauma Care in Veterans Health Administration Facilities
                                                                                              Appendix B
            OIG Contact and Staff Acknowledgments


OIG Contact                          For more information about this report, please contact the
                                     OIG at (202) 461-4720
Contributors                         Cathleen King, MHA, CRRN, Project Coordinator
                                     Annette Acosta, MN, RN
                                     Daisy Arugay, MT
                                     Lisa Barnes, MSW
                                     Debra Boyd-Seale, RN, PhD
                                     Donald Braman, RN
                                     Victoria Coates, LICSW, MBA
                                     Myra Conway, RN
                                     Douglas Henao, MS, RD
                                     Stephanie Hensel, RN, JD
                                     Elaine Kahigian, RN, JD
                                     Gayle Karamanos, MS, PA-C
                                     Sarah Lutter, RN, JD
                                     Karen McGoff-Yost, MSW, LCSW
                                     Diane McNamara, RN, MS
                                     Judy Montano, MS
                                     Glen Pickens, RN, MHSM
                                     Larry Selzler, MSPT
                                     Laura Snow, LMSW, MHCL
                                     Katrina Young, RN, MSHL
Other Contributors                   Elizabeth Bullock
                                     Lin Clegg, PhD
                                     Jeff Joppie, BS
                                     Larry Ross, MS
                                     Julie Watrous, RN, MS




VA Office of Inspector General                                                                          17
                                 Evaluation of Polytrauma Care in Veterans Health Administration Facilities
                                                                                              Appendix C

                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
National Center for Patient Safety
Office of General Counsel
Office of Medical Inspector
VISN Directors (1–23)
Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget


This report is available at www.va.gov/oig.




VA Office of Inspector General                                                                          18
